CREDIT LINE ACCOUNT
AGREEMENT AND DISCLOSURE
P.O. Box 261420
9305 West Alameda Avenue
Lakewood, Colorado 80226-9420

THIS IS YOUR CREDIT LINE ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL TRUTH-IN-LENDING
DISCLOSURE STATEMENTS, MASTERCARD® SECURED AND MASTERCARD PLATINUM AGREEMENTS, AND ANY
SPECIAL INSTRUCTIONS REGARDING THE USE OF YOUR MASTERCARD SECURED AND MASTERCARD PLATINUM
CREDIT CARDS, AND/OR ANY OTHER ACCOUNT ACCESS DEVICE. PLEASE BE CERTAIN TO READ THIS AGREEMENT
CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

MasterCard Secured - __________% introductory APR until __________________
After that, Your APR will be __________%. This APR will vary with the market based
on the Prime Rate.
MasterCard Platinum - __________% introductory APR until __________________
After that, Your APR will be __________%. This APR will vary with the market based
on the Prime Rate.

APR for Balance
Transfers

MasterCard Secured - __________% introductory APR until __________________
After that, Your APR will be __________%. This APR will vary with the market based on the
Prime Rate.
MasterCard Platinum - __________% introductory APR until __________________
After that, Your APR will be __________%. This APR will vary with the market based on the
Prime Rate.

APR for Cash Advances

MasterCard Secured - __________% introductory APR until __________________
After that, Your APR will be __________%. This APR will vary with the market based on the
Prime Rate.
MasterCard Platinum - __________% introductory APR until __________________
After that, Your APR will be __________%. This APR will vary with the market based on the
Prime Rate.
Overdraft Line of Credit - __________%

Paying Interest

For MasterCard, Your due date is at least 21 days after the close of each billing cycle. We will
not charge You any interest on purchases if You pay Your entire balance owed by the due date
each month. We will begin charging interest on cash advances and balance transfers on the
transaction date.
For all other Feature Categories, You will be charged interest from the transaction date.

For Credit Card Tips from To learn more about factors to consider when applying for or using a Credit Card, visit the
the Consumer Financial
website of the Consumer Financial Protection Bureau at
Protection Bureau
http://www.consumerfinance.gov/learnmore.
Fees
Transaction Fees


Foreign Transaction

For MasterCard, 1.00% of each transaction in U.S. dollars.

Penalty Fees



Returned Payment
Late Payment

For MasterCard, up to $9.00
For MasterCard, up to $15.00
Except MasterCard, $15.00

How We Will Calculate Your Balance: For MasterCard, We use a method called "average daily balance (including new purchases)."
For all other Feature Categories, We use a method called "daily balance." In all cases see Your Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.
Copyright Oak Tree Business Systems, Inc., 2012-2019. All Rights Reserved.

Page 1 of 4

OTBS 016 Promo_2 FRB_Web CUDE (8/19)
Rev. (8/19)

In this Agreement, the reference to "We," "Us," "Our" and "Credit Union" mean CREDIT UNION OF DENVER. The words "You" and "Your" mean each person accepting this
Agreement. If this is a joint Account, read singular pronouns in the plural. The words "Card" and "Credit Card" mean any MasterCard Secured or MasterCard Platinum Credit
Card issued to You by Us and any duplicates or renewals.
You, as the Borrower, under a Credit Line Account ("Account"), understand that the following Federal Disclosure Statement and the terms and conditions found herein constitute
Our Agreement with You. You may request advances on Your Account through a variety of means which could include (but may not be limited to) telephonic requests, advance
request forms, vouchers, checks, charge slips, Check Cards, Credit Cards, wire transfers, direct transfers and/or wire transfers to specific payees identified by You, direct
transfers to Your Share/Share Draft or other Credit Union account and the like. Regardless of the means by which any advance is made, You promise to pay Us all amounts
charged to Your Account by You or by any user who has access to Your Account, with actual, apparent or implied authority for use of Your Account, including Finance Charges
and other fees or charges described herein.
CATEGORIES. Your Account has Feature Categories which may include Overdraft Line of Credit, MasterCard Secured and MasterCard Platinum.

Feature Category

Variable Rate
Index

Monthly
Periodic Rate

Margin

Overdraft Line of Credit

Daily
Periodic Rate

ANNUAL
PERCENTAGE RATE

___________%

___________%

MasterCard Secured

__________ __________

___________%

___________%

MasterCard Platinum

__________ __________

___________%

___________%

ADVANCES. Whenever You request a transaction, We may require You to prove
Your identity. Advances made on Your Account will be processed according to the
instructions You give Us (such as by wire transfer, direct transfer to Your Credit
Union account or by other such means) and You authorize Us to do this, or We may
draw a draft or check made payable to You and mail it to You. When the amount
advanced appears on a subsequent statement, that will be conclusive evidence of
Your advance request unless You notify Us that You disagree with any such item
appearing on Your periodic statement according to the provision of this Agreement
titled "Your Billing Rights: Keep this Document for Future Use." You understand that
whether or not any specific secured advance request is approved may be
determined by how much equity You have or will have in the shares and/or
certificates offered as security.
SECURITY. As permitted by law, to secure all transactions under this Agreement in
either joint or individual Accounts, We have the right to impress and enforce a
statutory lien against Your shares on deposit with Us (other than those deposits
established under a governmental approved tax deferral plan such as an IRA or
Keogh account), and any dividends due or to become due to You from Us to the
extent that You owe on any unpaid balance on Your Account and We may enforce
Our right to do so without further notice to You. Additionally, You agree that We may
set-off any mutual indebtedness.
You acknowledge that You own any certificates, shares and/or Collateral pledged
as security and that there are no other liens against them other than Ours. You agree
to perform all acts which are necessary to make Our security interest in the
certificates, shares and/or Collateral being pledged enforceable.
For advances under any Feature Category that is secured by certificates, all
certificates which are pledged as Collateral must be renewed until Your outstanding
balance is paid in full. Failure to renew any certificates securing any advance will
cause Your entire outstanding balance to become immediately due and payable.
OTHER SECURITY. Collateral (other than household goods or any dwelling) given
as security under this Agreement or for any other loan You may have with Us will
secure all amounts You owe Us now and in the future if that status is reflected in the
"Truth-In-Lending Disclosure" in any particular Agreement evidencing such debt.
CONSENSUAL LIEN ON SHARES. If You have been issued a debit Card or
Credit Card, You grant and consent to a lien on Your shares with Us (except
for IRA and Keogh accounts) and any dividends due or to become due to You
from Us to the extent You owe on any unpaid Credit Card balance and/or
Overdraft Line of Credit balance created through the use of Your debit Card.
ACCOUNT RESTRICTIONS. In order to receive and maintain a MasterCard
Secured Feature Category, You agree to give Us a specific pledge of shares which
will equal Your Credit Limit. In the event that You default on Your MasterCard
Secured Feature Category, We may apply these shares toward the repayment of
any amount owed on such Feature Category. You may cancel Your MasterCard
Secured Feature Category at any time by paying any amounts owed on that Feature
Category. To be certain that Your entire balance and all advances are paid, any
shares pledged may not be available to You for 30 days after You have cancelled
and any outstanding balance is paid in full.
Copyright Oak Tree Business Systems, Inc., 2012-2019. All Rights Reserved.

LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit for each
Feature Category for which You are approved. Unless You are in default, any Credit
Limits established for You will generally be self-replenishing as You make payments.
You will keep Your unpaid balance within Your Credit Limit set by Us, and You will
pay any amount over Your Credit Limit on Our demand whether or not We authorize
the advances which caused You to exceed Your Credit Limit. Even if Your unpaid
balance is less than Your Credit Limit, You will have no credit available during any
time that any aspect of Your Account is in default.
JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for the
repayment of any amounts owed. If any Account access device, such as a Personal
Identification Number (PIN) is requested and approved, You understand that any
such Account access device(s) will be mailed only to the primary Borrower at the
address that We have on file for You. We may refuse to follow any instructions which
run counter to this provision.
MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You need
only pay the Minimum Monthly Payments, You understand that You have the right
to repay at any time without penalty. You also understand that You will only be
charged periodic Finance Charges to the date You repay Your entire balance. You
may make larger payments without penalty. Any partial payment or prepayment will
not delay Your next scheduled payment. All payments to Us must be in lawful money
of the United States. We may apply each payment to whichever Feature Category
We wish. For all Feature Categories (except MasterCard), payments will be applied
first to any Late Charges owing, then to the Finance Charge due, then to the
outstanding principal balance. Except as required by law, We may apply MasterCard
payments in an order of Our choosing.
Any unpaid portion of the Finance Charge will be paid by subsequent payments and
will not be added to Your principal balance. You understand that any delay in the
repayment of Your unpaid balance will increase Your periodic Finance Charges and
any acceleration in the repayment of Your unpaid balance will decrease Your
periodic Finance Charges.
Overdraft Line of Credit Minimum Monthly Payments will be an amount equal to
5.00% of Your Credit Limit, subject to the lesser of $25.00 or Your balance.
MasterCard Secured and MasterCard Platinum Minimum Payments will be an amount
equal to 2.00% of Your new unpaid MasterCard Secured or MasterCard Platinum
balance at the end of each billing cycle, subject to the lesser of $15.00 or Your balance,
plus any portion of the Minimum Payments shown on prior statement(s) which remains
unpaid, plus any amount that exceeds Your approved Credit Limit.
You may, by separate agreement, authorize Us to charge Your payment directly to
Your share or share draft account.
LATE CHARGE (EXCEPT MASTERCARD). If Your payment is more than 10 days
past due, You will be charged $15.00.
FINANCE CHARGES (EXCEPT MASTERCARD). A Finance Charge will be
assessed on any unpaid principal balance for each Feature Category of Your

Page 2 of 4

OTBS 016 Promo_2 FRB_Web CUDE (8/19)
Rev. (8/19)

Account for the period such balance is outstanding. Balances change each time
advances are made, payments are made or credits given under any Feature
Category. The Finance Charge begins to accrue on the date of each advance and
there is no grace period.
HOW TO DETERMINE THE FINANCE CHARGE (EXCEPT MASTERCARD). For
all Feature Categories (except MasterCard), the Finance Charge is determined by
multiplying Your unpaid balance at the close of each day in the billing cycle being
accounted for by the applicable Daily Periodic Rate. The unpaid balance is the
balance each day after payments, credits, and unpaid Finance Charges to that
balance have been subtracted and any new advances, insurance premiums or other
charges have been added to Your unpaid balance. These daily Finance Charges are
then added together and the sum is the amount of the Finance Charge owed for the
Feature Category being accounted for. The total Finance Charge You owe on Your
Account for each billing cycle is the sum of all the Finance Charges due for all
applicable Feature Categories.
MASTERCARD FINANCE CHARGES. In the case of any transactions under Your
MasterCard Secured and MasterCard Platinum Feature Categories, the balances
subject to the periodic Finance Charge are the average daily transactions balances
outstanding during the month (including new transactions). To get the average daily
balance, We take the beginning balance of Your Account each day, add any new
purchases, cash advances, balance transfers, insurance premiums, debit
adjustments or other charges and subtract any payments, credits and unpaid
Finance Charges. This gives Us the daily balance. Then, We add up all the daily
balances for the billing cycle and divide them by the number of days in the billing
cycle. The Finance Charge for a billing cycle is computed by multiplying the average
daily balance subject to a Finance Charge by the Monthly Periodic Rate.
Your due date is at least 21 days after the close of each billing cycle. You can avoid
Finance Charges on purchases by paying the entire balance owed by the due date
each month. Otherwise, the new balance of purchases, and subsequent purchases
from the date they are posted to Your Account, will be subject to a Finance Charge.
Cash advances and balance transfers are always subject to a Finance Charge from
the later of the date they are posted to Your Account or from the first day of the billing
cycle in which such transaction is posted to Your Account.

last statement. We will mail You a statement each month in which there is a debit or
credit balance or when a Finance Charge is imposed. We need not send You a
statement if We feel Your Account is uncollectible or if We have started collection
proceedings against You because You defaulted. EACH STATEMENT IS DEEMED
TO BE A CORRECT STATEMENT OF ACCOUNT UNLESS YOU ESTABLISH A
BILLING ERROR PURSUANT TO THE FEDERAL TRUTH-IN-LENDING ACT.
DEFAULT. You will be in default if: (a) You do not make any payment or perform
any obligation under this Agreement, or any other agreement that You may have
with Us; or (b) You should die, become involved in any insolvency, receivership or
custodial proceeding brought by or against You; or (c) You have made a false or
misleading statement in Your credit application and/or in Your representations to Us
while You owe money on Your Account; or (d) A judgment or tax lien should be filed
against You or any attachment or garnishment should be issued against any of Your
property or rights, specifically including anyone starting an action or proceeding to
seize any of Your funds on deposit with Us; and/or (e) We should, in good faith,
believe Your ability to repay Your indebtedness hereunder is or soon will be
impaired, time being of the very essence.
Upon any occurrence of default, We may, to the extent permitted by law, cancel Your
rights under this Agreement, require the return of all access devices and declare the
entire balance of every Feature Category of Your Account immediately due and
payable, without prior notice or demand.
COLLECTION COSTS. In the event collection efforts are required to obtain payment
on this Account, to the extent permitted by law, You agree to pay all court costs,
private process server fees, investigation fees or other costs incurred in collection
and reasonable attorneys' fees incurred in the course of collecting any amounts
owed under this Agreement or in the recovery of any Collateral.
ENFORCEMENT. We do not lose Our rights under this or any related agreement
if We delay enforcing them. We can accept late payments, partial payments or
any other payments, even if they are marked "paid in full" without losing any of
Our rights under this Agreement. If any provision of this or any related agreement
is determined to be unenforceable or invalid, all other provisions remain in full
force and effect.

For MasterCard Secured, until ______________________ Your balance for
purchases, balance transfers and cash advances will accrue finance charges at an
introductory Monthly Periodic Rate of __________% (corresponding to an ANNUAL
PERCENTAGE RATE of __________%). Upon the expiration of the introductory
rate period for purchases, balance transfers and cash advances the entire balance
for purchases, balance transfers and cash advances existing at that time and in the
future will accrue finance charges at the non-introductory variable rate as described
in this Agreement.

NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You move
or otherwise have a change of address.

For MasterCard Platinum, until _____________________ Your balance for
purchases, balance transfers and cash advances will accrue finance charges at an
introductory Monthly Periodic Rate of __________% (corresponding to an ANNUAL
PERCENTAGE RATE of __________%). Upon the expiration of the introductory
rate period for purchases, balance transfers and cash advances the entire balance
for purchases, balance transfers and cash advances existing at that time and in the
future will accrue finance charges at the non-introductory variable rate as described
in this Agreement.

CREDIT INSURANCE. Credit insurance is not required for any extension of credit
under this Agreement. However, You may purchase any credit insurance available
through Us and have the premiums added to Your outstanding balance. If You elect
to do so, You will be given the necessary disclosures and documents separately.

MASTERCARD VARIABLE RATE. MasterCard advances (other than purchase,
balance transfer and cash advance transactions made during the introductory rate
period) are subject to a Variable Rate which is based on the highest Prime Rate as
published in the Money Rates Section of The Wall Street Journal in effect on the last
day of May and November of each year ("Index") plus Our Margin. The Index plus
the Margin equals the Interest Rate. Changes in the Index will cause changes in the
Interest Rate on the 1st day of the billing cycle in January and July of each year.
Increases or decreases in the Interest Rate will cause like increases or decreases
in the Finance Charge and will affect the number of Your regularly scheduled
payments. Your Interest Rate will never be greater than 20.99% and will apply to
Your remaining principal balance.
OVERDRAFT PROTECTION. We may transfer funds in multiples of $100.00 (or in
such increments as We may from time to time determine) to Your share draft account
by an advance on Your Overdraft Line of Credit Feature Category, subject to this
provision, to clear any overdraft on Your share draft account. Whether or not such
transfers occur will be controlled by this Agreement. In any event, You hold Us
harmless for any and all liability which might otherwise arise if the transfer does not
occur. Overdraft protection automatically ceases if this Agreement is ever cancelled
or terminated or Your Account is in default.
PERIODIC STATEMENTS. On a regular basis, You will receive a statement showing
all transactions on Your Account including amounts paid and borrowed since Your

Copyright Oak Tree Business Systems, Inc., 2012-2019. All Rights Reserved.

CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal TruthIn-Lending Act. To the extent permitted by law, the right to change the terms of this
Agreement includes, but is not limited to, the right to change the periodic rate
applicable to Your unpaid balance and/or future advances.

INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure - Federal Truth-In-Lending Act," and/or "Credit Line Account Advance
Request and Security Agreement" which is delivered together with this Agreement
or at a later date becomes an integrated part of this Agreement And Disclosure.
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this Agreement.
By signing the application; or by using Your Account or any Account access device; or
by authorizing another to use Your Account, You agree to and accept its terms.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide facts
to update information contained in Your original Account application or other
financial information related to You, at Our request. You also agree that We may,
from time to time, as We deem necessary, make inquiries pertaining to Your
employment, credit standing and financial responsibility in accordance with
applicable laws and regulations. You further agree that We may give information
about the status and payment history of Your Account to consumer credit reporting
agencies, a prospective employer or insurer, or a state or federal licensing agency
having any apparent legitimate business need for such information.
TERMINATION. Either You or We may cancel Your Account or any particular
Feature Category of Your Account, at any time, whether or not You are in default.
You will, in any case, remain liable to pay any unpaid balances according to the
terms of Your Account.
GOVERNING LAW. This Agreement is controlled and governed by the laws of the
State of Colorado except to the extent that such laws are inconsistent with controlling
federal law.

Page 3 of 4

OTBS 016 Promo_2 FRB_Web CUDE (8/19)
Rev. (8/19)

SPECIFIC TERMS APPLICABLE TO YOUR MASTERCARD
SECURED AND MASTERCARD PLATINUM CREDIT CARDS

What To Do If You Find A Mistake On Your Statement

USE OF YOUR CARD. You may use Your Card to buy goods and services in any
place that it is honored and to get cash advances at participating financial
institutions. You agree not to use Your Card for illegal transactions including, but not
limited to, advances made for the purpose of gambling and/or wagering where such
practices are in violation of applicable state and/or federal law.
OWNERSHIP. Your Card remains Our property and may be cancelled by Us at any
time without notice. You agree to surrender Your Card and to discontinue its use
immediately upon Our request.
ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. We will issue, upon
Your request, a Personal Identification Number (PIN) for use with participating
Automated Teller Machines (ATMs). This PIN is confidential and should not be
disclosed to anyone. You may use Your PIN to access Your Account and all sums
advanced will be added to Your Account balance. In the event a use of Your PIN
constitutes an Electronic Fund Transfer, the terms and conditions of Your Electronic
Fund Transfer Agreement may also affect Your rights.

If You think there is an error on Your statement, write to Us at Our address shown
in this Agreement. In Your letter, give Us the following information:




Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe what
You believe is wrong and why You believe it is a mistake.

You must contact Us:



Within 60 days after the error appeared on Your statement.
At least 3 business days before an automated payment is scheduled, if You want
to stop payment on the amount You think is wrong.

You must notify Us of any potential errors in writing. You may call Us, but if You do
We are not required to investigate any potential errors and You may have to pay the
amount in question.
What Will Happen After We Receive Your Letter

EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other
slips You may sign or receive when using Your Card contain terms, this Agreement
is the contract which solely applies to all transactions involving the Card.
UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Card.
You will not be liable for the unauthorized use that occurs after You notify Us of the
loss, theft, or possible unauthorized use by calling Us at (866) 820-5890 or by writing
to Us at the address shown in this Agreement. In any case, Your liability will not
exceed $50.00.
REFUSAL TO HONOR CARDS. We are not liable for the refusal or inability of
merchants, financial institutions and others to accept the Cards or electronic
terminals to honor the Cards or complete a Card withdrawal, or for their retention of
the Cards.
FOREIGN TRANSACTIONS. For transactions initiated in foreign currencies, the
exchange rate between the transaction currency and the billing currency (U.S.
dollars) will be: (a) a rate selected by MasterCard from the range of rates available
in wholesale currency markets for the applicable central processing date, which
rate may vary from the rate MasterCard itself receives; or (b) the governmentmandated rate in effect for the applicable central processing date. For all
transactions initiated in foreign countries, You will be charged 1.00% calculated
on the final settlement amount.
TRANSACTION SLIPS. Your monthly statement will identify that merchant,
electronic terminal or financial institution at which transactions were made, but sales,
cash advances, credit or other slips cannot be returned with the statement.
LATE CHARGE. If Your payment is more than 10 days past due, You will
be charged the lesser of: (a) the amount of the minimum payment due; or
(b) $15.00.
OTHER FEES AND CHARGES. You will be charged the following fees associated
with the use of Your Card: (a) the lesser of $9.00 or the required minimum payment
amount for the returned payment for any check (or other negotiable instrument used
for payment) which is returned unpaid; (b) $5.00 for each replacement PIN You
request; (c) $10.00 for each replacement Card You request; (d) $45.00 each time
that You request expedited delivery of Your Card; (e) $85.00 each time that You
request expedited (24-hour) delivery of a replacement Card; (f) $5.00 each time You
request a copy of a billing statement or sales draft; and (g) $25.00 per hour each
time You request that We research Your Account.
LOST CARDS. To report lost or stolen Credit Cards, You will immediately call Us at
(800) 449-7728 or write to Us at the address shown in this Agreement.
CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a slip which will be posted to Your
Account. If Your credits and payments exceed what You owe Us, We will hold and
apply this credit against future purchases and cash advances, or if it is $1.00 or more
refund it on Your written request or automatically deposit it to Your share account
after six months.

1) Within 30 days of receiving Your letter, We must tell You that We received Your
letter. We will also tell You if We have already corrected the error.

2) Within 90 days of receiving Your letter, We must either correct the error or
explain to You why We believe the bill is correct.
While We investigate whether or not there has been an error:





We cannot try to collect the amount in question, or report You as delinquent on
that amount.
The charge in question may remain on Your statement, and We may continue
to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible for
the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

After We finish Our investigation, one of two things will happen:



If We made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send You a statement
of the amount You owe and the date payment is due. We may then report You
as delinquent if You do not pay the amount We think You owe.

If You receive Our explanation but still believe Your bill is wrong, You must write to
Us within 10 days telling Us that You still refuse to pay. If You do so, We cannot
report You as delinquent without also reporting that You are questioning Your bill.
We must tell You the name of anyone to whom We reported You as delinquent, and
We must let those organizations know when the matter has been settled between
Us. If We do not follow all of the rules above, You do not have to pay the first $50.00
of the amount You question even if Your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with Your
Credit Card, and You have tried in good faith to correct the problem with the
merchant, You may have the right not to pay the remaining amount due on the
purchase. To use this right, all of the following must be true:
1) The purchase must have been made in Your home state or within 100 miles of
Your current mailing address, and the purchase price must have been more than
$50.00. (Note: Neither of these are necessary if Your purchase was based on
an advertisement We mailed to You, or if We own the company that sold You
the goods or services.)
2) You must have used Your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
3) You must not yet have fully paid for the purchase.
If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Our address shown in this Agreement.

Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.

Copyright Oak Tree Business Systems, Inc., 2012-2019. All Rights Reserved.

While We investigate, the same rules apply to the disputed amount as discussed
above. After We finish Our investigation, We will tell You Our decision. At that point, if
We think You owe an amount and You do not pay, We may report You as delinquent.

Page 4 of 4

OTBS 016 Promo_2 FRB_Web CUDE (8/19)
Rev. (8/19)

PRICING INFORMATION ADDENDUM CREDIT
LINE ACCOUNT AGREEMENT AND DISCLOSURE
P.O. Box 261420
9305 West Alameda Avenue
Lakewood, Colorado 80226-9420

THIS IS YOUR ADDENDUM THAT CONTAINS PRICING INFORMATION FOR YOUR MASTERCARD SECURED AND
MASTERCARD PLATINUM CREDIT CARDS. PLEASE BE CERTAIN TO READ THIS ADDENDUM CAREFULLY AND NOTIFY
US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

MasterCard Secured - __________% introductory APR until __________________
After that, Your APR will be
Prime Rate.

16.24%.

This APR will vary with the market based on the

MasterCard Platinum - 5.99% introductory APR until __________________
After that, Your APR will be 9.24%-16.24% based on Your creditworthiness. This APR
will vary with the market based on the Prime Rate.
APR for Balance
Transfers

MasterCard Secured - __________% introductory APR until ________________
After that, Your APR will be 16.24%. This APR will vary with the market based on the
Prime Rate.
MasterCard Platinum - 5.99% introductory APR until ________________
After that, Your APR will be 9.24%-16.24% based on Your creditworthiness. This APR will vary
with the market based on the Prime Rate.

APR for Cash Advances

MasterCard Secured - __________% introductory APR until ________________
After that, Your APR will be 16.24%. This APR will vary with the market based on the
Prime Rate.
MasterCard Platinum - 5.99% introductory APR until
After that, Your APR will be 9.24%-16.24% based on Your creditworthiness. This APR will vary
with the market based on the Prime Rate.

Paying Interest

Your due date is at least 21 days after the close of each billing cycle. We will not charge You any
interest on purchases if You pay Your entire balance owed by the due date each month. We will
begin charging interest on cash advances and balance transfers on the transaction date.

Fees
Transaction Fees


Foreign Transaction

1.00% of each transaction in U.S. dollars.

Penalty Fees



Returned Payment
Late Payment

Up to $9.00
Up to $15.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See Your
Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.

Copyright Oak Tree Business Systems, Inc., 2012-2019. All Rights Reserved.

Page 1 of 2

OTBS 016A Promo_2 FRB_Web CUDE (8/19)
Rev. (8/19)

MASTERCARD FINANCE CHARGES. In the case of any transactions under Your MasterCard Secured and MasterCard Platinum Feature Categories, the balances subject
to the periodic Finance Charge are the average daily transactions balances outstanding during the month (including new transactions). To get the average daily balance, We
take the beginning balance of Your Account each day, add any new purchases, cash advances, balance transfers, insurance premiums, debit adjustments or other charges
and subtract any payments, credits and unpaid Finance Charges. This gives Us the daily balance. Then, We add up all the daily balances for the billing cycle and divide them
by the number of days in the billing cycle. The Finance Charge for a billing cycle is computed by multiplying the average daily balance subject to a Finance Charge by the
Monthly Periodic Rate.
Your due date is at least 21 days after the close of each billing cycle. You can avoid Finance Charges on purchases by paying the entire balance owed by the due date each
month. Otherwise, the new balance of purchases, and subsequent purchases from the date they are posted to Your Account, will be subject to a Finance Charge. Cash
advances and balance transfers are always subject to a Finance Charge from the later of the date they are posted to Your Account or from the first day of the billing cycle in
which such transaction is posted to Your Account.
For MasterCard Secured, Your balance for purchases, balance transfers and cash advances will accrue finance charges at an introductory Monthly Periodic Rate of
___________% (corresponding to an ANNUAL PERCENTAGE RATE of _______%) until ___________________ . Upon the expiration of the introductory rate period, the
entire balance for purchases, balance transfers and cash advances existing at that time and in the future will be subject to a variable Monthly Periodic Rate of 1.3533%
(corresponding ANNUAL PERCENTAGE RATE 16.24%).
For MasterCard Platinum, Your balance for purchases, balance transfers and cash advances will accrue finance charges at an introductory Monthly Periodic Rate of 0.4992%
(corresponding to an ANNUAL PERCENTAGE RATE of 5.99%) until __________________. Upon the expiration of the introductory rate period, the entire balance for
purchases, balance transfers and cash advances existing at that time and in the future will be subject to a variable Monthly Periodic Rate of 0.7700% - 1.3533% (corresponding
ANNUAL PERCENTAGE RATE 9.24% - 16.24%), depending on Your creditworthiness.
MASTERCARD VARIABLE RATE. MasterCard advances (other than purchase, balance transfer and cash advance transactions made during the introductory rate period)
are subject to a Variable Rate which is based on the highest Prime Rate as published in the Money Rates Section of The Wall Street Journal in effect on the last day of May
and November of each year ("Index") plus Our Margin. The Index plus the Margin equals the Interest Rate. Changes in the Index will cause changes in the Interest Rate on
the 1st day of the billing cycle in January and July of each year. Increases or decreases in the Interest Rate will cause like increases or decreases in the Finance Charge and
will affect the number of Your regularly scheduled payments. Your Interest Rate will never be greater than 20.99% and will apply to Your remaining principal balance.
For MasterCard Secured, Your Margin will be 10.99%.
For MasterCard Platinum, Your Margin will be determined by Your creditworthiness and will be 3.99% - 10.99%.

Copyright Oak Tree Business Systems, Inc., 2012-2019. All Rights Reserved.

Page 2 of 2

OTBS 016A Promo_2 FRB_Web CUDE (8/19)
Rev. (8/19)

